<html>
<title> - DOMESTIC PARTNER BENEFITS FOR FEDERAL EMPLOYEES: FAIR POLICY AND GOOD BUSINESS</title>
<body><pre>[Senate Hearing 110-944]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-944
 
 DOMESTIC PARTNER BENEFITS FOR FEDERAL EMPLOYEES: FAIR POLICY AND GOOD 
                                BUSINESS

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
45-581                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                   Lawrence B. Novey, Senior Council
                        Kenya N. Wiley, Counsel
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
            Amanda Wood, Minority Director for Governmental
                    Lisa M. Nieman, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Akaka................................................    21

                               WITNESSES
                     Wednesday, September 24, 2008

Hon. Howard C. Weizmann, Deputy Director, U.S. Office of 
  Personnel Management...........................................     4
Yvette C. Burton, Ph.D., Global Business Development Executive 
  for Gay, Lesbian, Bisexual, Transgender (GLBT) and Human 
  Capital Market Segments, IBM Corporation.......................     6
Colleen M. Kelley, National President, National Treasury 
  Employees Union................................................     8
Sherri Bracey, Program Manager, Women's and Fair Practices 
  Departments, American Federation of Government Employees, AFL-
  CIO............................................................    10
Frank A. Hartigan, Deputy Regional Director, San Francisco 
  Office, Federal Deposit Insurance Corporation..................    13

                     Alphabetical List of Witnesses

Bracey, Sherri:
    Testimony....................................................    10
    Prepared statement...........................................    48
Burton, Yvette C., Ph.D.:
    Testimony....................................................     6
    Prepared statement...........................................    34
Hartigan, Frank A.:
    Testimony....................................................    13
    Prepared statement...........................................    53
Kelley, Colleen M.:
    Testimony....................................................     8
    Prepared statement...........................................    41
Weizmann, Hon. Howard C.:
    Testimony....................................................     4
    Prepared statement...........................................    31

                                APPENDIX

Copy of S. 2521..................................................    66
Prepared statements, letters, and documents submitted for the 
  Record from:
    American Postal Workers Union (APWU), AFL-CIO, letter dated 
      September 17, 2008.........................................    75
    American Federation of State, County, and Municipal Employees 
      (AFSCME), letter dated September 19, 2008..................    77
    Joe Solmonese, President, Human Rights Campaign, prepared 
      statement with attachments.................................    79
    Federal GLOBE: Gay, Lesbian, Bisexual, Transgender Employees 
      of the Federal Government, prepared statement..............    92
    Coalition of 15 organizations in support of the Domestic 
      Partner Benefits and Obligations Act, S. 2521, letter dated 
      September 23, 2008.........................................    95
    Human Rights Campaign, letter dated October 10, 2008, with 
      attachments................................................    97
    College and University Professional Association for Human 
      Resources (CUPA-HR), letter dated September 24, 2008.......   136
    American Foreign Service Association (AFSA) and Gays and 
      Lesbians in Foreign Affairs Agencies (GLIFAA), prepared 
      statement..................................................   138
    Gregory J. Junemann, President, International Federation of 
      Professional and Technical Engineers (IFPTE), AFL-CIO, 
      prepared statement.........................................   143
    General Electric Company (GE), letter dated September 17, 
      2008.......................................................   147
    Kathleen Marvel, Senior Vice President and Chief Diversity 
      Officer, The Chubb Corporation, prepared statement.........   149
    TIAA-CREF, prepared statement................................   153
    Orson Porter, Nike Government Affairs-Nike, Inc., prepared 
      statement..................................................   155
    Helga Ying, Director, Worldwide Government Affairs and Public 
      Policy, Levi Strauss & Co., prepared statement.............   156
    ``The Fiscal Impact of Extending Federal Benefits to Same-Sex 
      Domestic Partners,'' September 2008, report submitted by 
      the Williams Institute.....................................   157
    ``One Simple Step for Equality,'' September 2008, report 
      submitted by the Center for American Progress..............   173
Questions and responses for the Record from:.....................
    Mr. Weizmann, with an attachment.............................   189
    Ms. Burton, with attachments.................................   197


                       DOMESTIC PARTNER BENEFITS


                         FOR FEDERAL EMPLOYEES:



                     FAIR POLICY AND GOOD BUSINESS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and thank you all for 
being here. This morning, our Committee will consider S. 2521, 
the Domestic Partnership Benefits and Obligations Act, which 
Senator Smith and I and more than 20 other Senators introduced 
last December.
    Obviously, we are toward the end of this session of 
Congress so that it is too late for this measure to be adopted 
this year, but all of us who sponsored it consider it to be an 
important and serious proposal on which we need to begin the 
discussion. And I am looking forward to action on it, 
hopefully, in the next session of Congress. And that is what we 
hope to do this morning. We thank the witnesses that we have 
before us who will help us in that discussion.
    Senator Smith and I, and the other cosponsors, introduced 
this bill because we believe it makes sense for the Federal 
Government as an employer and, of course, because we believe it 
is the fair and right thing to do. We are confident that it 
will help the Federal Government attract and retain the high-
quality employees we need to carry out our responsibilities to 
the American people in the years ahead, particularly at a time 
when all the experts tell us there will be a generational 
change that will bring a very large percentage of Federal 
employees to retirement.
    This legislation would provide employee benefit programs to 
the same-sex domestic partners of Federal employees. They would 
be eligible to participate in health benefits, long-term care, 
family and medical leave, Federal retirement benefits, and all 
other benefits for which married employees and their spouses 
are eligible. Federal employees and their domestic partners 
would also be subject to the same responsibilities that apply 
to married employees and their spouses, such as anti-nepotism 
rules and financial disclosure requirements.
    According to UCLA's Williams Institute, over 30,000 Federal 
workers live in committed relationships with same-sex partners 
who are not Federal employees. That these Federal workers 
receive fewer protections for their families than those who are 
married jeopardizes their continued ability to work for the 
Federal Government.
    We often hear--and some of us have often said--that the 
government should be run more like a business. While the 
purposes of government and business are different, I believe 
that government does have a lot to learn from private sector 
business models, including in the matter before us. The fact is 
that a majority of the largest U.S. corporations--including 
more than half of all Fortune 500 companies--already offer 
benefits to domestic partners. Why? I presume, in part, because 
it is the fair thing to do, but also clearly because these 
businesses have decided that it helps their businesses succeed.
    General Electric, IBM, Eastman Kodak, Dow Chemical, the 
Chubb Corporation, Lockheed Martin, and Duke Energy are among 
the major employers that have recognized the economic benefit 
of providing benefits for domestic partners. Overall, almost 
10,000 private sector companies of all sizes provide benefits 
to domestic partners. The governments of 13 States, including 
my home State of Connecticut, about 145 local jurisdictions 
across our country, and some 300 colleges and universities also 
provide such benefits. They are not doing this just because it 
is the right thing to do, though I think it is. They are doing 
it because it is good employee-management policy.
    Non-Federal employers have told analysts that they extend 
benefits to domestic partners to boost recruitment and retain 
quality employees--as well as to be fair. If we want the 
Federal Government to be able to compete for the best and the 
brightest, we are going to have to provide some of the same 
benefits job seekers can find elsewhere.
    The experts tell us that 19 percent of an employee's 
compensation comes in the form of benefits, including benefits 
for family members. Employees who do not get benefits for their 
families are, therefore, not being paid equally. Now, of 
course, I and all of us understand that covering domestic 
partners will add to the total cost of providing Federal 
employee benefits. And, of course, we understand that 
particularly now is a time when we have to be careful about 
government spending and do rigorous cost-benefit analyses of 
all, not just new, but of all Federal expenditures. I have 
talked about what I believe are the benefits of this 
legislation. I would add that based on the experience of 
private companies and State and local governments, the 
Congressional Budget Office has estimated that extending 
benefits to same-sex domestic partners of Federal employees 
would increase the cost of these programs by less than one-half 
of 1 percent. The Office of Personnel Management says that the 
cost of health benefits for domestic partners over 10 years 
would be $670 million. And remember that our Federal budget 
now--now, not 10 years from now--is at $3 trillion, and, I 
would say this week, rising every day.
    We will hear from our witnesses this morning about the 
impact that the lack of domestic partner benefits has on 
people. But I would like to take the liberty of quoting from, 
unfortunately, the resignation speech of Michael Guest, who was 
Ambassador to Romania and also Dean of the Foreign Service 
Institute. I think it makes a very moving and eloquent case for 
extending benefits to same-sex partners.
    I believe Ambassador Guest was the first publicly gay man 
to be confirmed for an ambassadorship from the United States. 
When he resigned the Foreign Service in 2007, he said, and I 
quote from his farewell address to his colleagues, ``I have 
felt compelled to choose between obligations to my partner--who 
is my family--and service to my country. That anyone should 
have to make that choice is a stain on the Secretary's 
leadership and a shame for this institution and our country.''
    Those are very moving and, I would say, compelling words 
from a talented and loyal public servant--who once described 
the Foreign Service as the career he was ``born for . . . what 
I was always meant to do.'' And, of course, it is a great loss 
that he felt compelled to leave the Foreign Service--
particularly now at a time when our Nation so desperately needs 
talented diplomats to help meet the challenges we face--in 
large part because his Federal employee benefits would not 
enable him to adequately care for the needs of his family.
    The Domestic Partners Benefits and Obligations Act makes 
good economic sense. It is sound policy, and I believe it is 
the right thing to do. So I look forward to this morning's 
discussion of this proposal.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. That was a very 
moving statement indeed.
    Today the Committee considers legislation that would extend 
Federal employee benefits to same-sex domestic partners. The 
Federal Government needs to have good benefits that help 
attract the most qualified and capable employees, and this 
legislation would help to advance that goal. I am, therefore, 
pleased to commend the Chairman for taking the lead on a 
national issue of fairness, equality, tolerance, and equal 
treatment.
    As the Chairman has explained, the Domestic Partnership 
Benefits and Obligations Act provides that a Federal employee 
and his or her domestic partner would have the same benefits 
that apply to a married Federal employee and his or her spouse. 
There are many practical reasons for doing this. The Federal 
Government faces a huge challenge in attracting and retaining 
talented and dedicated employees, both because of competition 
from private employers and because of the wave of potential 
retirements in the years ahead. Adapting Federal benefits 
policy to reflect the common practice among Fortune 500 
companies will help us meet these challenges.
    Equally important, the principles supporting this change 
are a matter of simple fairness. As long as the partners in the 
household have established a personal relationship based on an 
affirmed commitment, I see no public purpose to be served by 
denying their eligibility for Federal benefits.
    There is, however, one issue that the Committee may wish to 
consider. My colleagues should look at how my home State of 
Maine has addressed this issue. It addresses the issue more 
broadly than this bill. Since 2004, Maine has operated a 
domestic partner registry that allows Maine-domiciled, 
committed adults to register for legal recognition as domestic 
partners to secure rights such as next-of-kin status and 
medical decision-making power. This registry does not, however, 
restrict these benefits to same-sex partners. Partners in 
committed relationships of different genders can also register. 
Similarly, Maine health insurance law requires that any insurer 
offering health insurance or contracts subject to State 
regulation offer the same coverages and rates for registered 
domestic partners that it offers to the spouses of insured 
individuals. And, again, the law does not distinguish between 
same-sex and opposite-sex relationships. So I want to hear our 
witnesses discuss that issue this morning.
    Again, let me emphasize that, regardless of that broader 
issue--and there are legitimate issues for expanding this 
definition and for not doing so--many experts predict that the 
Federal Government is about to experience a huge retirement 
wave. Indeed, some estimate that approximately 60 percent of 
the Federal workforce will be eligible for retirement over the 
next decade. According to the Human Rights Campaign, 56 percent 
of the Fortune 500 companies, including some of our top Federal 
contractors, extend spousal benefits to domestic partners. It 
seems to me that if the Federal Government is going to compete 
with the private sector for some of the most talented 
workforce, we need to use some of the same incentives to 
attract and, as the Chairman's statement indicated, to keep 
qualified individuals in the public sector.
    So I thank you, Mr. Chairman, for having this hearing 
today. It is an important issue in terms of our ability to 
ensure that the Federal Government has the best qualified 
workforce possible.
    Thank you.
    Chairman Lieberman. Thanks, Senator Collins, for that very 
thoughtful statement. Again, I thank the witnesses. We have got 
a very good panel before us to discuss the issue, and we will 
begin with the Hon. Howard Weizmann, who is the Deputy Director 
of the U.S. Office of Personnel Management. Thanks for being 
here.

TESTIMONY OF HON. HOWARD C. WEIZMANN,\1\ DEPUTY DIRECTOR, U.S. 
                 OFFICE OF PERSONNEL MANAGEMENT

    Mr. Weizmann. Thank you, Chairman Lieberman and Ranking 
Member Collins. I want to thank all the Members of the 
Committee for discussing this important issue.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Weizmann appears in the Appendix 
on page 31.
---------------------------------------------------------------------------
    Thank you for the opportunity to come today before you to 
provide technical comments on S. 2521 which, if enacted, would 
provide Federal benefits to the same-sex domestic partners of 
Federal employees.
    The Federal Government offers a competitive and 
comprehensive package of employer-sponsored benefits for 
Federal employees and their families. Federal employees may 
elect insurance coverage under the Federal Employees Health 
Benefits Program (FEHB), the Federal Employees Dental and 
Vision Insurance Program, the Federal Employees' Group Life 
Insurance Program, and the Federal Long Term Care Insurance 
Program, including benefits for family members. In addition, 
Federal employees are eligible for employer-sponsored 
retirement and leave benefits. In pursuit of our mission to 
ensure the Federal Government has an adequate and effective 
civilian workforce, the Office of Personnel Management (OPM) 
has primary responsibility with respect to the administration 
of these benefits, as incorporated in Title 5 of the United 
States Code.
    Mr. Chairman, as you know, your bill, S. 2521, would 
provide benefits for the same-sex domestic partners of 
employees like the benefits currently available to married 
employees. The bill defines domestic partner as ``an adult 
unmarried person living with another adult unmarried person of 
the same sex in a committed, intimate relationship.'' The bill 
includes coverage under Title 5 insurance benefit programs, 
retirement and disability benefits, the Family and Medical 
Leave Act (FMLA), and the Federal Worker's Compensation Act, 
among others.
    As background, domestic partners of Federal employees are 
not included as eligible family members under Title 5 for any 
of these Federal programs. Therefore, the same-sex domestic 
partners are not entitled to benefits. Opposite-sex domestic 
partners are similarly not entitled to these benefits. Same-sex 
marriages are not recognized for benefit entitlement purposes 
under any of the Federal benefit programs. Public Law 104-199, 
the Defense of Marriage Act, signed on September 21, 1996, 
created a new Section 7 to Title 1 of the United States Code, 
providing that in the interpretation of any law enacted by the 
Congress, ``the word `marriage' means only a legal union 
between one man and one woman as husband and wife, and the word 
`spouse' refers only to a person of the opposite sex who is a 
husband or a wife.'' This definition applies in ``any ruling, 
regulation, or interpretation of the various administrative 
bureaus and agencies of the United States.''
    As for technical comments, the bill itself provides that, 
first, benefits programs described in Title 5 refer to coverage 
for both Federal employees and Federal annuitants. However, a 
strict interpretation of the bill, as currently drafted, raises 
questions as to whether benefits would be available to same-sex 
domestic partners once an employee retires.
    Second, the bill provides that affidavits pertaining to the 
eligibility of domestic partners for Federal benefits be filed 
with OPM. Human resource functions are conducted at each of the 
Federal agencies, including benefits enrollment and payroll 
deductions, on behalf of agency employees. OPM does not serve 
as a central clearinghouse for all Federal employees and, 
therefore, would not have the records nor resources to collect 
and maintain such affidavits.
    Third, OPM has concerns with the administration of benefits 
for a domestic partnership. Currently, spousal benefits are 
based on the documentation of a State-sanctioned marriage. The 
bill under consideration would provide benefits to those in 
domestic partnerships or relationships which are certified by 
affidavit. OPM believes this process could lead to fraud and 
abuse in the programs we administer. Spousal equity benefit 
determinations frequently rely on State court orders awarding 
annuity and insurance benefits coverage. There is no analogous 
provision in the proposed legislation. For example, the bill 
specifically provides that in the event ``a domestic 
partnership dissolves by method other than death of the 
employee or domestic partner of the employee, the former 
domestic partner shall be entitled to benefits available to, 
and shall be subject to obligations imposed upon, a former 
spouse.'' The provision lacks the specificity needed to 
determine eligibility and amount of benefits for a separated 
domestic partner.
    OPM also notes that the estimated cost of these additional 
beneficiaries to the current system of active and retired 
Federal employees would increase outlays. As the Chairman 
noted, we estimate the FEHB Program government costs would be 
$41 million for 2010 and approximately $670 million for the 
period of 2010 through 2019. We estimate the cost of the 
legislation for survivor benefits would increase the total 
present value of benefits by about $50 million--$37 million for 
non-Postal and $13 million for Postal workers. Retirement costs 
for this group would initially decrease because their retiree 
annuities would be reduced to provide for the survivor annuity, 
while few survivor benefits would be paid to domestic partners 
initially.
    This concludes my statement, and I would be happy to answer 
questions as the hearing proceeds.
    Chairman Lieberman. Thanks, Mr. Weizmann. Interesting 
questions, which we will get back to during the later part of 
the hearing.
    Our next witness is Dr. Yvette Burton, who is a Business 
Development Executive with IBM. It is a pleasure to have you 
here, and thanks for your testimony.

   TESTIMONY OF YVETTE C. BURTON, PH.D.,\1\ GLOBAL BUSINESS 
 DEVELOPMENT EXECUTIVE FOR GAY, LESBIAN, BISEXUAL, TRANSGENDER 
   (GLBT) AND HUMAN CAPITAL MARKET SEGMENTS, IBM CORPORATION

    Ms. Burton. Thank you, Mr. Chairman. Good morning. Senator 
Lieberman, Senator Collins, and Members of the Committee for 
Homeland Security and Governmental Affairs, my name is Yvette 
Burton, and I am the Global Business Development Executive for 
Gay, Lesbian, Bisexual, Transgender (GLBT), and Human Capital 
Market Segments at IBM, and in that role I have responsibility 
for providing strategic advisement and consultation to our 
customers in that space as they embark on organizational 
transformation around the world. I have submitted my testimony 
for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Burton appears in the Appendix on 
page 34.
---------------------------------------------------------------------------
    In my testimony, I will share IBM's point of view as one of 
the growing number of Fortune 500 companies implementing 
domestic partner benefits. In addition, I will address IBM's 
job market perspective on the utilization of domestic partner 
benefits as a strategy for competitive talent management.
    Senator Lieberman, Senator Collins, and other Committee 
Members, IBM has over 356,000 employees in 74 countries. IBM 
unites different cultures, languages, professions, and 
perspectives in one globally integrated enterprise. This unique 
combination of viewpoints fuels IBM technologies, products, 
services, and our commitment to our clients' success.
    As a leader on GLBT issues, IBM can be proud of the 
progress it has made in empowering GLBT employees around the 
world and in the IBM workplace.
    For example, IBM maintains a 100-percent ranking on the 
Human Rights Campaign (HRC) Corporate Equality Index for the 
United States. In 1999, IBM was named one of the best companies 
to work for, for gays and lesbians by HRC.
    In 2002, IBM became the first ``Gold Corporate Sponsor'' of 
the Atlanta Executive Network (AEN), the largest GLBT 
professional networking organization in the United States.
    Advocate magazine names IBM one of the ``Top Companies to 
Work for Today.''
    As a business-to-business company, corporations and 
institutions come to IBM for leadership and as a model on how 
to build and leverage a diverse workforce and how to drive that 
towards our clients' success. In essence, we provide the answer 
to the question ``Why Does IBM Work?'' Undoubtedly, programs 
like domestic partnership benefits are a critical component to 
our success.
    So let's examine how domestic partner benefits actually 
benefit business. IBM has become a globally integrated 
enterprise. As our economy becomes more globally integrated and 
competition for skilled employees becomes even more intense, 
the ability to attract, retain, and develop world-class talent 
is crucial.
    For over a decade, IBM has used domestic partnership 
benefits as a differentiating and competitive method to attract 
employees. Increased loyalty to the company and our history of 
non-discriminatory practices are some of the immediate 
advantages of implementing programs like this. But domestic 
partner benefits do not only attract GLBT employees. Like IBM, 
many companies report that the implementation of domestic 
partner benefits helped to attract and retain crucial talent 
segments of non-GLBT employees. These particular candidates 
have reported that the existence of domestic partnership 
benefit policies like that at IBM demonstrate that the company 
truly values and respects all employees, that they protect all 
employees. It also shows IBM's commitment to including diverse 
perspectives. This trend is especially prevalent among younger 
candidates of the workforce--a segment crucial to the future 
demographics of any sector.
    Domestic partnership benefits serve as a vital talent 
development opportunity at the leadership level. As 
organizations effectively integrate domestic partnership 
benefits into practice, it provides a valuable framework for 
leaders to clarify the organization's commitment to eliminating 
those attitudes and behaviors that negatively impact on 
business results. In a nutshell, it can improve low 
productivity and morale caused by inequitable workplace 
practices, thereby creating a positive work environment.
    Unfortunately, many GLBT employees spend a good deal of 
their workdays concealing their orientation from co-workers for 
fear of backlash and adverse impact to career advancement. The 
absence of domestic partnership benefits contributes to this 
problem by signaling to all employees that GLBT employees are 
not equally valued in the workplace. This disconnect in the 
commitment to equitable treatment of the workforce can become a 
breeding ground for inconsistent employment and human resource 
conditions for GLBT employees in general.
    Providing domestic partnership benefits can help an 
organization develop a stronger and industrious workforce. How? 
Strong development opportunities have been evident in the 
results of GLBT employees who take great personal risks in 
discussing their families with their managers. In these 
examples, we see key business skills--skills like strategic 
risk taking, decision-making, and the demonstration of trust 
and responsibility in all relationships. These leadership 
skills are key to advancing a company's business objectives. In 
the end, manager-employee conversations prove to be an 
invaluable growth opportunity for both the employees and the 
organization.
    Last, domestic partnership benefits create a sense of 
loyalty to the company, a bond between the employee and the 
organization, as well as a balance of work and home. In a 
competitive market and difficult and uncertain times, the 
commitment by our employees has proved enduring.
    A related issue I would also like to address is IBM's 
support for the Tax Equity for Domestic Partner and Health Plan 
Beneficiaries Act, S. 1556. As many of you know, gay and 
lesbian employees who receive domestic partnership benefits 
have to pay taxes on their employers' contribution for health 
insurance benefits and employers must pay payroll taxes on 
their employees' taxable income. This legislation would 
eliminate these taxes and allow those who cannot afford the 
extra taxes to offer health care coverage for their loved ones.
    In conclusion, IBM, much like the Federal Government, has a 
long history of establishing equilibrium in the workplace. And 
IBM, much like the Federal Government, has worked to eliminate 
the gap between the promise and the practice of workplace 
equality. These actions have proven to be very successful for 
IBM on many levels. Specifically, IBM's triumph in creating an 
open and welcoming environment--regardless of sexual 
orientation, gender identity, and gender expression--has truly 
allowed us to attract and retain talent to advance our 
business.
    Senator Lieberman, thank you.
    Chairman Lieberman. Thanks very much, Dr. Burton. That was 
very interesting, very helpful.
    Next we have Colleen Kelley, National President of the 
National Treasury Employees Union. Welcome.

TESTIMONY OF COLLEEN M. KELLEY,\1\ NATIONAL PRESIDENT, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Ms. Kelley. Thank you very much, Chairman Lieberman and 
Ranking Member Collins.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kelley appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    For over 70 years, the National Treasury Employees Union 
(NTEU) has been in the forefront of defending and advancing 
better pay, benefits, and working conditions for Federal 
employees. I have had the honor of testifying before this 
Committee many times in the past, and I thank you for this 
invitation today.
    Under the legislation that you have introduced, Mr. 
Chairman, Federal workers with domestic partners would be able 
to participate in employee benefit programs similar to the 
options allowed for married couples. The legislation would also 
require Federal employees and their domestic partners to be 
subject to the same duties, obligations, and ethics 
requirements that married employees are mandated to follow. And 
as you noted, and I would emphasize, this bill proposes both 
benefits and obligations.
    There is a very sound principle embraced on a bipartisan 
basis that fair and comprehensive employee benefits in our 
society are best promoted by the Federal Government operating 
as a model employer. Then the private sector is encouraged but 
not mandated to adopt these benefits by the good example and 
the resulting market forces of the Nation's largest employer--
the Federal Government. In this situation, however, we are 
seeing the reverse. The Federal Government is no longer in the 
forefront but is behind. With over 53 percent of Fortune 500 
companies offering domestic partner benefits and many public 
employers, including the State of Connecticut, as you noted, 
Mr. Chairman, this sets up a situation where the very entities 
that we, in the Federal Government, are competing with for the 
recruitment of the best and brightest workers, they are 
offering domestic partner benefits. Market forces and the good 
example of the private sector now put this issue before the 
Federal sector.
    As the exclusive bargaining representative for over 150,000 
Federal employees, NTEU is the first to hear from those we 
represent about pay, benefits, and working conditions. Domestic 
partner benefits are a concern that our members raise 
frequently. We have discussed and debated the issue at our 
National Conventions and passed resolutions in support at every 
NTEU National Convention going back more than a decade.
    Just recently, I heard from a worker at the IRS Service 
Center in Ogden, Utah, a Customs and Border Protection officer 
serving on the Canadian border in Maine, and a Social Security 
Administration employee in Cleveland, Ohio, all of whom have 
asked the union to work on having domestic partner benefits 
extended to the Federal sector.
    There is another reason why Congress should move favorably 
on this legislation. This Committee has been very attentive to 
the coming human capital crisis in the Federal sector. I have 
testified and we all know that more than half of the Federal 
Government's employees will become eligible for retirement in 
the next 10 years, and approximately 40 percent of the Federal 
workforce is expected to retire in that period. In the next 5 
years alone, it could be 30 percent of the workforce, over 
600,000 individuals.
    I have testified that OPM needs to step up its marketing 
and its outreach. I have also testified that the looming crisis 
is not just a matter where the response can be moving those 
next in line up the food chain and stepping up entry-level 
hires. The Federal Government did very little hiring in the 
1990s, while at the same time, the Federal workforce was 
reduced by about 400,000 workers. We are not only losing the 
senior layer of the workforce in the next 10 years, there is 
also no one behind them to do the jobs. Mid-career and mid-
level candidates need to be attracted to Federal service, 
including those who are part of a domestic partner couple.
    Given this reality, it is simply unacceptable that the 
Federal Government does not offer benefits equal to or better 
than the private firms the government is competing with for 
talent. Most obviously, it is a desirable recruitment tool for 
an employee with a partner not in the labor force or in a job 
that does not offer health insurance. When asking applicants to 
relocate, it is a tough sell for a married couple, but at least 
the agency can offer relocation and related expenses and at 
least the non-Federal spouse can participate in the health 
insurance plan while searching for a new job in the new 
location. To ask a highly qualified candidate to relocate, and 
to expect the candidate's domestic partner to leave his or her 
employment and employer-sponsored health insurance to move to a 
new city, could cause the Federal Government to miss out on 
some of the best and the most able candidates.
    And to your question, Senator Collins, NTEU would not 
object to expansion of the legislation to include domestic 
partner coverage as you described in Maine.
    Mr. Chairman, I thank you again for the opportunity to 
testify in support of this legislation, and I would be happy to 
answer any questions that you have.
    Chairman Lieberman. Thanks very much, Ms. Kelley. I 
appreciate the testimony, and I have some questions for you 
afterward.
    Next we have Sherri Bracey, Program Manager for Women's and 
Fair Practices Department of the American Federation of 
Government Employees. So we have the two employee groups 
represented here who represent the largest numbers of our 
Federal workforce.
    Thank you for being here.

  TESTIMONY OF SHERRI BRACEY,\1\ PROGRAM MANAGER, WOMEN'S AND 
 FAIR PRACTICES DEPARTMENT, AMERICAN FEDERATION OF GOVERNMENT 
                       EMPLOYEES, AFL-CIO

    Ms. Bracey. Thank you. Mr. Chairman and Members of the 
Committee, my name is Sherri Bracey, and I am the Program 
Manager of the Women's and Fair Practices Department of the 
American Federation of Government Employees (AFGE). Our union 
represents more than 600,000 Federal and District of Columbia 
workers, and today I testify on their behalf in support of S. 
2521, the Domestic Partnership Benefits and Obligations Act of 
2008, a bill which would provide the same-gender domestic 
partners of Federal employees the same benefits available to 
spouses of married Federal employees.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bracey appears in the Appendix on 
page 48.
---------------------------------------------------------------------------
    This legislation is about equity--the type of equity that 
assures that Federal agencies are capable of recruiting and 
retaining the brightest and the best workers, and the type of 
equity that personifies civil service protections. S. 2521 
would result in the equalization of benefits such as health 
insurance, retirement benefits, Family and Medical Leave Act 
benefits, life insurance, workers' compensation, death and 
disability benefits, and even reimbursement benefits for 
relocation, travel, and related expenses.
    Under S. 2521, biological and adopted children of domestic 
partners will be treated the same as step-children of married 
Federal workers. Same-gender domestic partners would be subject 
to the same anti-nepotism and financial rules and obligations 
as married Federal workers. These benefits and obligations are 
the norm for what workers, especially those in the Federal 
workplace, reasonably expect to receive from employers.
    To become eligible for equitable treatment, Federal 
employees in same-sex domestic partnerships would be required 
to file legal affidavits of eligibility with the Office of 
Personnel Management to certify that they share a home and 
financial responsibilities, affirm that they have the intention 
to remain in the domestic partnership indefinitely, and notify 
OPM within 30 days if the partnership is dissolved.
    It is important to note that OPM readily accepts affidavits 
in support of FMLA benefits for all Federal workers and that 
the agency has not expressed undue concern with fraud in the 
administration of that program.
    The practice of treating married employees and those in 
committed same-sex partnerships equitably with regard to health 
insurance and retirement benefits is now well established in 
the private sector, and in many State and local governments. 
Clearly, these private and public employers offer such benefits 
not only because it is fair and appropriate, but also because 
the labor market has made such policies an imperative in the 
competition to attract and retain excellent employees.
    Fortune 500 firms, the best comparison for the Federal 
Government as the Nation's largest employer, extend equal 
benefits to spouses and same-sex domestic partnerships. The 
Federal Government should do no less. The Federal Government 
should be a model employer that strives to attain the highest 
level of fairness for its employees with additional duty to all 
taxpayers to adopt employment policies that facilitate the 
hiring and retention of a workforce of the highest quality.
    Top wages, top benefits, and top work environments attract 
the top talent. The economic value of family coverage for 
health insurance, survivor benefits for retirement, disability, 
workers' compensation, life insurance, and full family coverage 
of relocation costs are substantial to workers and have 
extremely modest costs for the government. Non-cash Federal 
benefits make up almost a third of a typical Federal worker's 
compensation and become even more important to workers because 
the salary gap between Federal and non-Federal jobs has 
actually grown in recent years so that it now stands at 22.97 
percent, on average, nationwide.
    To add to the challenge, continuing to discriminate against 
workers in same-gender domestic partnerships is as irrational 
as it is unfair. Imagine the perspective of a high-performing 
Federal employee who happens to have a domestic partner and two 
kids and who works in a job that the Federal Government admits 
it has trouble recruiting for, such as a certified registered 
nurse anesthetist in the Veterans Administration, or a Defense 
Department information technology specialist with a high 
security classification. If that Federal worker has a coworker 
with identical job responsibilities and performance who happens 
to be married with two kids, the worker with the domestic 
partner and kids would only be eligible for single coverage 
from FEHBP while married workers would enjoy subsidized family 
coverage from FEHBP, worth approximately $8,561.80 per year, 
and that subsidy is not taxed.
    If a married Federal employee with two kids dies early, his 
or her survivors will receive benefits ranging from $12,432 to 
$38,628 per year depending on his or her salary. In identical 
circumstances, a surviving domestic partner and children of 
that Federal worker are left with nothing.
    The single largest component of compensation after salary 
and their own annuity for the vast majority of Federal 
employees who earn a full retirement annuity after a career on 
Federal service is the financial value of survivor benefits. 
This inequity in the treatment of a Federal employee's survivor 
is the most severe and the most indefensible. It is impossible 
to square these facts with the merit system principle of equal 
pay for substantially equal work.
    The injury to Federal workers in domestic partnerships and 
their families is real and severe. Federal GLOBE, an advocacy 
group of Federal workers whose purpose is to eliminate 
prejudice and discrimination in the Federal Government based on 
sexual orientation, provided this telling narrative from a 
member discussing the impact of second-class benefits for 
first-class work on their family:
    ``My partner and I had to incur the significant expense of 
individual health insurance for her because she was not 
eligible to receive coverage through my employment. During this 
time, she was working as an independent consultant. My married 
colleagues were able to provide their partners with health 
benefits which were more extensive than my partner's individual 
insurance and partially subsidized by the government. I did not 
see my relationship with my partner as any less legitimate or 
permanent than my colleagues' marriages. We are in a long-term 
relationship, 14 years, which is no more or less permanent than 
a legal marriage. We completely share our finances, so denial 
of health insurance for her is a denial of benefits to me. I 
really see the inequities in health insurance benefits coverage 
as discrimination based on both material status and sexual 
orientation.''
    The Congressional Budget Office has calculated that 
enactment of S. 2521 would add less than one-half of 1 percent 
to the existing costs of this program. Therefore, cost cannot 
serve as a valid rationale for failure to pass this legislation 
and is far outweighed by the cost of turnover, retirement, and 
training when experienced Federal workers leave Federal service 
because of inequities in benefits suffered by workers in 
domestic partnerships. The format of a family, all families, is 
a happy occasion and should be supported by the U.S. 
Government.
    This concludes my statement. I would be happy to answer any 
questions Members of the Committee may have.
    Chairman Lieberman. Thank you very much for your testimony, 
Ms. Bracey.
    And, finally, we have Frank Hartigan, who is Deputy 
Regional Director of the Federal Deposit Insurance Corporation. 
Thanks for being here.
    Maybe we should ask you first, how is the FDIC doing this 
week? [Laughter.]
    Mr. Hartigan. All right.
    Chairman Lieberman. You are all right. And we are OK, 
right?
    Mr. Hartigan. We are OK.

 TESTIMONY OF FRANK A. HARTIGAN,\1\ DEPUTY REGIONAL DIRECTOR, 
  SAN FRANCISCO OFFICE, FEDERAL DEPOSIT INSURANCE CORPORATION

    Mr. Hartigan. Chairman Lieberman, Ranking Member Collins, 
and Members of the Committee, I am happy to be here today to 
testify on behalf of domestic partner benefits for Federal 
employees.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hartigan appears in the Appendix 
on page 53.
---------------------------------------------------------------------------
    My name is Frank Hartigan, and I am an executive manager at 
the Federal Deposit Insurance Corporation. I have worked for 
the FDIC for 24 years and am currently a Deputy Regional 
Director in the Division of Supervision and Consumer 
Protection.
    I am here to tell you about my experience and unique 
perspective as a gay executive in the Federal Government. I am 
testifying on my own behalf, and I am not speaking for the 
FDIC.
    The lack of domestic partner benefits is a fairness issue 
that negatively impacts employees during their entire career 
and into retirement. The lack of domestic partner benefits is 
in direct contradiction to the best practices of workplace 
fairness.
    Gay and lesbian employees have to deal with inequities in 
the workplace every day when it comes to benefits. They face 
financial and emotional hardships when their partner does not 
have adequate health, dental, and vision insurance. They often 
feel at a disadvantage when applying for other Federal jobs or 
advancement opportunities that involve relocation, as 
relocation benefits are not the same for domestic partnerships 
as they are for heterosexual married employees. And gay and 
lesbian employees are at a disadvantage when they compare their 
retirement benefits to their coworkers.
    Some Federal agencies, like the Federal banking regulators, 
have recognized these inequities and have implemented limited 
forms of domestic partner benefits. I am proud to say that the 
FDIC, under the leadership of Chairman Bair, is also beginning 
to do the same. While this is a step in the right direction, 
these attempts to equalize benefits fall short of achieving 
actual equality. In plain words, the total compensation package 
for gay and lesbian Federal employees is not equal to their 
coworkers in the same job.
    As a result, the lack of domestic partner benefits puts the 
government at a disadvantage when trying to attract and retain 
a qualified workforce. More than half of the Fortune 500 
companies and almost 10,000 other employers provide domestic 
partner benefits. Also, many State and local governments plus 
colleges and universities provide domestic partner benefits to 
their employees.
    Young gay and lesbian employees certainly consider domestic 
partner benefits when deciding between potential jobs and 
employers. They are much more enlightened to the issue of 
domestic partner benefits than I was when I entered the Federal 
workforce. In retrospect, I have asked myself, ``If I were 
starting out in today's job market, would I take a job with the 
Federal Government knowing what I know about domestic partner 
benefits?'' I believe I would look elsewhere.
    Being competitive in attracting new talent is especially 
important when you look at the number of people eligible to 
retire in the coming years. As has already been testified, the 
numbers are significant. Given the large loss of talent, the 
Federal Government will need to ensure that it is viewed as an 
employer of choice by prospective employees.
    Potential new employees consider domestic partner benefits 
not only as part of a total compensation package, but they also 
look at them as an indication of a fair and respectful 
workplace.
    Perhaps the most obvious and ongoing disparity in employee 
benefits is in the insurance coverage offered to family members 
of Federal employees. Domestic partners of gay and lesbian 
employees cannot be covered by the Federal health insurance 
programs. This is also true for vision, dental, and life 
insurance coverage. The lack of insurance can cost a family a 
great deal of money.
    One of my colleagues has worked for the Federal Government 
for 28 years and is in a long-term relationship. He and his 
partner are raising three adopted children. Since the employee 
cannot provide health insurance to his partner under the family 
plan, they pay roughly $9,000 a year for a separate policy. The 
quality of the insurance coverage does not compare to that 
offered by the Federal Employees Health Benefit program. It 
carries high deductibles and premiums that are an additional 
burden to the family's budget.
    His partner needed two surgeries that required significant 
out-of-pocket expense. They are now postponing further needed 
surgery simply because they cannot afford it. All this comes at 
a time when they are preparing to send two children off to 
college.
    Another colleague left the government for private sector 
employment specifically because of the lack of domestic partner 
benefits. She took with her training and expertise that was 
paid for by the agency to the private sector that offers 
domestic partner benefits. We lost a very smart, valuable, and 
talented employee.
    A close friend and colleague who has been with her partner 
for over 18 years and with the government for 25 years recently 
paid more than $10,000 for dental work for her partner. Under 
our family dental insurance program, she would have received 
about 60 or 70 percent of those expenses in reimbursement.
    Gay and lesbian employees in domestic partnerships are also 
treated substantially different than married couples when it 
comes to relocation benefits. When an employee makes a 
geographic move for the benefit of the organization, agencies 
reimburse them for certain allowable expenses. If an employee 
is married, the relocation benefits extend to the spouse. 
However, if a gay or lesbian employee owns a home with a 
domestic partner, only the employee's portion of the residence, 
household goods, and vehicles are covered. Relocation benefits 
are essentially cut in half.
    Gay and lesbian employees are also disadvantaged with 
retirement benefits. Retirement benefits for Federal employees 
with domestic partners are not equal to those provided to 
married employees. A married employee with a spouse can choose 
to provide a survivor annuity. This same option is not 
available to domestic partners.
    And of course, the inequities in health insurance benefits 
extend into retirement. Health insurance for domestic partners 
cannot be provided in retirement, but an opposite-sex spouse 
has the right to health insurance coverage.
    I recently attended a 3-day seminar on retirement benefits 
sponsored by my agency. Throughout the 3 days, there was 
extensive talk about benefits available to the spouses of 
heterosexual employees and the need to ``protect your spouse'' 
in the event of the employee's death. There was absolutely no 
discussion of similar benefits for my partner because they do 
not exist.
    Last, I would like to address the issue of 
``presenteeism.'' This is where an employee shows up for work 
but because of distractions their mind is elsewhere. Family 
problems can certainly impact any employee. However, due to the 
lack of domestic partner benefits, gay and lesbian employees 
have added stress and burden. For instance, in all of the 
examples I have talked about today, the gay or lesbian employee 
was under additional stress, had more distractions, and was not 
able to focus 100 percent on their job. Whether the employee 
was worrying about the health or well-being of an uninsured 
partner, trying to figure out how to cover the additional 
expense of higher insurance costs and medical expenses, feeling 
as if they are limited in opportunities for career advancement 
because of inequities in relocation benefits, or being anxious 
about providing for their family in retirement, all of this 
significantly affects an employee's level of presenteeism.
    In closing, I would like to say that today's hearing 
regarding the Domestic Partnership Benefits and Obligations Act 
gives many great hope that the U.S. Government recognizes and 
is willing to correct the grave inequities that exist by 
requiring departments and agencies to offer a full complement 
of domestic partner benefits, including health, dental, vision, 
and life insurance, as well as relocation and retirement 
benefits. The Federal Government strongly espouses the 
principle, both for itself and private employers, of equal pay 
for equal work. Yet it knowingly has tolerated a system in 
which gay and lesbian employees have less total compensation 
than non-gay coworkers doing exactly the same job.
    Domestic partner benefits are necessary for the Federal 
Government to compete for the most qualified employees and to 
ensure that all of its public servants receive fair and 
equitable treatment. It makes good economic and policy sense, 
and it is the right thing to do.
    Thank you for the opportunity to testify today. I would be 
happy to answer any questions of the Committee.
    Chairman Lieberman. Thanks very much, Mr. Hartigan. Thanks 
for your testimony. The real life stories you tell, I think, 
present some of the strongest evidence for the benefits that we 
are attempting under this legislation to provide. And I thank 
you for teaching us a new word: ``presenteeism.'' I will 
immediately notify William Safire that you have done that.
    Let's start with 7-minute rounds of questions.
    Let me start, Dr. Burton, with you just by way of a summary 
question. It is implicit in everything you said, but, as I 
indicated in my opening statement, these are benefits that we 
would like to provide--if I speak for myself and the other 
sponsors. But we understand that we have to subject these, 
notwithstanding our belief that they are fair and right, to a 
cost-benefit analysis.
    I assume that IBM has concluded that the benefits of 
providing the range of domestic partner benefits that we have 
talked about significantly outweighs the cost. Is that correct?
    Ms. Burton. Yes, Senator Lieberman, that is correct. 
Conversely, when we considered those variables that were 
mentioned by the last witness--those distractions that detract 
from performance and delivery of business results, we see that 
easily those types of attitudes and behaviors in areas like 
that can take away up to 20 percent of our ability to deliver 
the bottom-line results for the company.
    So we take quite seriously being able to not only implement 
programs like domestic partner benefits, but then to support it 
with the infrastructure to deliver, monitor, and ensure that we 
have the processes to make them effective.
    Chairman Lieberman. Thanks.
    Mr. Weizmann, let me ask a few points of you. I must say 
that Senator Collins and I talked about this. We note, as we 
listen to your testimony on behalf of OPM, that you neither 
endorse nor oppose the legislation. You describe the legal 
context. You raise some questions, which are appropriate 
questions, about its implementation. And you reported on some 
of the estimates of cost. So I suppose I take that as an 
encouraging sign. Am I reading you correctly on behalf of OPM?
    Mr. Weizmann. We have taken no position on this bill.
    Chairman Lieberman. Yes. Well, I appreciate that at this 
point in the discussion. Let me ask you this question based on 
what you know, and, again, I am not asking you to take a 
position on the legislation because you are not authorized to 
do that. But do you think, from the arguments that we have 
heard today, that it would help the Federal Government in its 
competition for top talent to offer domestic partner benefits?
    Mr. Weizmann. Well, it is an interesting benefit, and I 
guess what I would think is that when I look at the take-up 
rates of these benefits where they are offered, they are 
generally around one percent for all employees who take those 
benefits.
    Chairman Lieberman. Yes.
    Mr. Weizmann. And it seems to me when you talk about 
solving the retirement wave crisis, we proceed from a very 
small specific to a very large general using this benefit.
    Chairman Lieberman. So you would say it would help, if I 
hear you, but it is not going to solve our human capital 
management.
    Mr. Weizmann. I am not in a position to say whether it 
would help or not. There is really nothing other than anecdotal 
evidence as to whether this is useful in an attraction and 
retention mode. At least we could not find any surveys that 
really indicated that these benefits either attracted people or 
retained people.
    Now, clearly there are anecdotal situations that people can 
cite, but there are also the same kinds of anecdotal situations 
for married employees within the Federal Government.
    Chairman Lieberman. I suppose from my point of view, the 
provision of benefits for same-sex partners would naturally be 
an inducement for some people to come to work for the Federal 
Government as opposed to private employers who offered such 
benefits. I wonder if any of the other witnesses want to 
comment on that other than anecdotally. I do not know whether 
there have been any studies done on that. Again, it would seem 
to be common sense that this would be an effective inducement 
to employment. Anybody else want to join in that? Ms. Kelley.
    Ms. Kelley. I am not aware of any studies either, Chairman 
Lieberman, but what I do believe is that as a model employer, 
there is a wide range of things that the Federal Government 
needs to look at and be implementing in order to increase the 
chances of recruiting and retaining top talent, both today and 
into the future. And I do not see this legislation as any 
suggestion that it is the one thing that would fix the 
recruiting and retention problems. It is one of many things. 
And if this is the way we need to go about them, one at a time, 
then on its merits and the fact that it is fair, appropriate, 
and affordable, it sends a message not only to those who might 
elect to take the coverage, but to the kind of workforce that 
the Federal Government wants to have, and how they value and 
respect the total Federal workforce then, it is certainly worth 
doing.
    Chairman Lieberman. I was interested in Dr. Burton's 
comments about the feeling that IBM has that the provision of 
same-sex partner benefits is an inducement to people who are 
not in same-sex relationships because of what it says about the 
work climate overall.
    Look, I suppose without a specific study--one market-based 
indicator here is that more than half of the Fortune 500 
companies offer these benefits, presumably not just because 
they have decided they are right, because after all, these are 
businesses, and not because they have been compelled by law in 
most cases to do it, but because they think it is good for 
business. So that leads me to think it would be good for the 
Federal Government, certainly in terms of attracting and 
retaining.
    Mr. Weizmann, let me ask you one more question in the time 
I have on this round. I want to ask you to elaborate a bit on 
the practical question you raised, the concern about the 
potential for fraud. You expressed concern that the reliance on 
affidavits lacks the specificity needed to determine 
eligibility and benefits for a separated domestic partner. And 
I want to ask whether, generally, do you believe that the 
provisions in our legislation involving affidavits should be 
tightened up? Or do you believe that any reliance on affidavits 
to determine eligibility will bring problems that will be 
difficult to fix?
    Mr. Weizmann. I think there are two points regarding the 
tracking. The first is when an employee signs up for domestic 
partner benefits under this legislation. Simply providing a 
self-verification of an existing relationship itself is pretty 
thin in terms of an evidentiary matter. There are places that 
require, quite frankly, more in terms of joint financial 
investments and those kinds of things. So, I think that is part 
of the problem.
    The other problem, which is perhaps more significant, is 
what we do on the dissolution of that relationship. I know in 
the private sector, for example, long-term disability is a huge 
issue for most employers who, in fact, have trouble tracking 
down people who are still and remain eligible for long-term 
disability. When you come to the Federal Government, we have 
some 4 million active employees and retirees covered under 
FEHB, and 8 million in total in terms of beneficiaries. The 
size of our system and also our fiduciary responsibility to 
ensure that people who are receiving benefits are, in fact, 
eligible for benefits makes this a huge administrative burden 
for us. And, quite frankly, to rely on an affidavit that is 
filed once at one point in life and then some requirement even 
to report when the relationship dissolves, when you consider 
the self-interest that would be involved in people who would 
like to continue those benefits, it is a pretty weak thread to 
build a fabric of legislation here.
    Chairman Lieberman. I am going to ask Senator Collins' 
indulgence just to ask one follow-up question of Dr. Burton, 
since you represent a large employer who has offered these 
benefits to their employees. Just take a moment to describe 
both the eligibility procedure at IBM and also the extent to 
which you have either confronted or worry about fraud.
    Ms. Burton. Thank you, Senator. As the government goes 
through and tries to solidify the appropriate process that 
would serve as strategic control points, we would be happy to 
share best practices. And, again, I am speaking as a 
consultant, not as a benefits administrator, so bear with the 
level of detail.
    The affidavits serve the same purpose, or a remedy for the 
lack of legal certificates, that a marriage certificate would 
provide. But most corporations do not rely on the affidavit to 
serve as the panacea for the absence of processes. What they do 
is make that affidavit analogous to the purpose that a marriage 
certificate would serve. So at IBM, what that looks like is 
just as my married colleagues would be advised to have their 
marriage certificates at the ready should a benefits 
administrator need to draw on that license, in the event of my 
death for my partner to receive benefits or should I retire, 
there is a document that certifies the date and nature of our 
relationship that is referenceable and is at the ready. And, 
likewise, the corporation advises that if I live in a State, 
let's say, like California, where marriage is an option, so not 
only just the affidavit but in the description of what the 
domestic partnership is. There are avenues if the option to 
marry becomes available. It also talks about not only the 
affidavit, but a legal certified document, a marriage license, 
that is now available for same-gender couples.
    So, again, it is being genuine to the purpose of that 
affidavit and how it serves to move the processing of benefits. 
And with regard to termination of benefits, there is also 
language in our domestic partnership guide that states an 
employee has to notify our employment center about the change 
in his or her relationship within 30 days, much like if the 
employee was married and divorced there would be an obligation 
to notify the corporation of a change in status. But as I have 
offered, if helpful to the Committee, I would be delighted to 
provide more detailed information on our processes.
    Chairman Lieberman. Thank you. That was helpful.
    Mr. Weizmann. Senator Lieberman, may I correct something 
that I said before?
    Chairman Lieberman. Yes.
    Mr. Weizmann. Because I was misinformed. We do oppose this 
bill and I am regretful.
    Chairman Lieberman. Oh, I am sorry to hear that. Probably I 
asked one too many questions.
    Mr. Weizmann. Probably did. Maybe it changed during the 
course of this hearing. I am not sure.
    Chairman Lieberman. OK. Senator Collins.
    Senator Collins. Mr. Weizmann, in view of what you said, I 
want to ask you some further questions. You had extensive 
experience in the private sector prior to coming to OPM. Did 
any of the companies for which you worked extend domestic 
partnership benefits?
    Mr. Weizmann. Yes, we did.
    Senator Collins. Were there any problems with those 
programs?
    Mr. Weizmann. As I indicated, statistically we did not have 
very many people electing those benefits. At the same time, the 
program still was too new. We are not talking about a period of 
10 or 15 years. We are talking about a period of months, 
really, when we adopted them from the time I was there.
    Senator Collins. Well, in looking at the firms at which you 
worked, Aetna, for example, has domestic partnership benefits, 
and they have retained those benefits for a number of years. In 
the case of Aetna, it goes back a decade. If, in fact, these 
were not advantageous benefits for the private sector companies 
to have, don't you think they would have done away with those 
benefits?
    Mr. Weizmann. Senator Collins, with all due respect, having 
worked in companies all my life and only having recently come 
to the Federal Government, companies adopt benefits for a whole 
bunch of reasons, and while we talk about the attraction and 
retention issue, in many instances for employers they look at 
this as a matter of either fairness or the kind of equity 
issues that have been discussed here. The fact that they retain 
those benefits and is at least as likely because they do not 
cost much and they have not proven administratively burdensome 
because they have relatively few people electing those benefits 
and is really not indicative of whether that benefit has been 
reviewed and whether they want to keep it or they do not keep 
it.
    Senator Collins. Well, I think you just made the case for 
the benefit on another ground, which is fairness. Either these 
companies are viewing it as the right thing to do as a matter 
of fairness, or they are finding that it is advantageous to 
them in terms of attracting and retaining a high-quality 
workforce. Either way they have reached a decision to extend 
this benefit that to me is a compelling decision for the 
Federal Government to follow either as a matter of fairness or 
as a matter of retention and attraction.
    Mr. Weizmann. Senator, corporate decision-making, as we 
know, as we have recently found out, is often imperfect. Having 
said that, when you look at the overall statistics of those 
employers that have elected same-sex domestic partner benefits, 
for all employers in total, it is 11 percent. It is not an 
overwhelming number. When you get to larger employers, yes, 
indeed, the statistics that Senator Lieberman quoted are 
accurate.
    So, whether it is an equity issue or what those 
determinations are made, those are really specific to what the 
company's policies are. It is not something for me to discuss.
    Senator Collins. Well, it seems to me that the parallel for 
the Federal Government is, in fact, large employers. That is 
what the Federal Government is, and that is what most of the 
firms who provide these benefits are, in the larger-firm 
category.
    Let me go on to Dr. Burton because I am going to have to 
leave right after I conclude these questions. Dr. Burton, some 
have argued that the reason we should extend these benefits to 
same-sex partners but not unmarried heterosexual partners in a 
committed relationship is that same-sex partners in most parts 
of the country are unable to legalize their relationship 
through marriage. Yet we do not want to provide a disincentive 
to marriage for heterosexual partners.
    On the other hand, if our goal is to increase the 
recruitment and retention of qualified employees, should there 
be a distinction between committed partnerships of different-
sex partners versus committed partnerships of same-sex couples?
    Ms. Burton. Thank you, Senator Collins. I have served IBM 
and watched other institutions along their remarkable journies 
and the laser sharpness in the intent of this policy decision. 
There are some companies that have expanded domestic partner 
benefits to opposite-sex partners, but most to same-sex 
partners because of the spirit of their intent is to create 
equilibrium. Many domestic partnership guides have verbiage 
like, if your partner was opposite sex, you would marry. Or, 
you would not be committed to more than one individual. The 
intent of the policy is clear in focus and what it is trying to 
exact.
    And IBM has been phenomenal in participating in forums to 
discuss laws against gender or orientation, where we face 
execution, where we have customers and a commitment to serving 
through excellence in business, where we are mindful partners 
in advancing the conversation but do not break local laws.
    Senator Collins. Thank you.
    Mr. Weizmann, in your statement you outline some technical 
issues that I think are legitimate aside from the broader 
issue. But I would suggest that the answers to those technical 
concerns about affidavits, about the dissolving of a 
relationship, are found by looking at IBM's policies, by 
looking at the State of Maine's policies. There are answers to 
that. When we have 56 percent of the Fortune 500 companies 
having these policies, they have clearly worked through those 
kinds of technical issues.
    So I, for one, am very willing to work with you to improve 
the language of the Chairman's bill to guard against fraud, to 
make sure that we address the procedural issues. But those are 
not difficult challenges because many of these businesses have 
already worked through them. The State of Maine has already 
worked through them and has a lot of safeguards built into 
State laws.
    So I do not think that those legitimate concerns that you 
have raised about the specific drafting of the Chairman's bill 
should serve as a reason not to move forward with the 
legislation.
    Mr. Weizmann. Senator, there are two things. In the first 
instance, I do not know and I am not sure that anyone in this 
room necessarily knows the degree to which companies actually 
monitor relationships that go forward.
    I do know that, as you cited before, in my own private 
experience, when benefits do not cost very much and they are 
not utilized very much, they do not get a lot of attention. 
There are other benefits that do. If I looked at the evidence 
of what private sector companies do in terms of whether they 
have had it long term or short term, I do not know whether that 
is dispositive or whether these issues have been resolved or 
are being addressed.
    The second thing that I would like to say is the Federal 
Government, in terms of its provision of benefits, is much 
larger and also has a much stronger fiduciary obligation to the 
taxpayer in terms of ensuring that those benefits are delivered 
and delivered accurately. So I think that those are two 
distinguishing features. As I said in the first instance, I am 
not sure that there is evidence in the fact that the private 
sector has these benefits. And, two, I think that the Federal 
Government is different than private sector employers simply 
because it is so very large and it has such a strong fiduciary 
relationship with the taxpayers.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Senator Collins, thank you, and I know 
you have had other demands on your time on matters that are 
very important this morning, so I appreciate the time you spent 
here and the questions you asked.
    Senator Akaka, good morning and welcome. Thank you for 
being here.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you. Good morning. Mr. Chairman, I am 
happy to be here. I want to thank Senator Collins for her views 
and the statements she just made in really looking at the 
future. We need to do that. And I want to say that I am so glad 
to be a cosponsor of the Chairman's bill. There is no question 
that if we need to work on it to make it better, we need to do 
that. That is the reason why we have these hearings, to hear 
from you, with the hope that we will have some advice that can 
improve our bills. And so, this is where we are.
    Mr. Chairman, I would ask that my full statement be placed 
in the record.
    Chairman Lieberman. Without objection. Thanks, Senator 
Akaka. Thanks for your cosponsorship, too.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    Mr. Chairman, I want to thank you for holding this important 
hearing on domestic partnership benefits for Federal employees and let 
you know how proud I am to be a cosponsor of your bill, S. 2521, the 
Domestic Partnership Benefits and Obligations Act.
    I firmly believe that the Federal Government's most important asset 
is its employees. Yet, the Federal Government is not keeping pace with 
the changing demands of the modern workforce. Over the course of the 
past five years, I have worked with my colleagues to provide Federal 
agencies with the tools and resources to compete for talent and retain 
the highly skilled workforce. We have extended to Federal employees 
dental and vision care options, greater flexibility with the Thrift 
Savings Plan, and new compensatory time and leave provisions. However, 
more needs to be done.
    Competition for talented employees in the global marketplace is 
fierce. Beginning in the early 1990s, large private employers like the 
Walt Disney Company began to recognize the need to offer competitive 
benefits packages that include domestic partners. Other large private 
and public employers soon followed suit. To date, eight of the Fortune 
10 companies, over fifty percent of the Fortune 500 companies, hundreds 
of small businesses and non-profit organizations, and more than 200 
State and local governments, including the State of Hawaii and City of 
Honolulu, provide domestic partnership benefits. This appears to be 
standard industry practice.
    As the largest employer in the United States, the Federal 
Government should be the leader in providing benefits and options for 
its workforce. Other employers look to the Federal Government as the 
standard bearer for personnel policies. Unfortunately when it comes to 
domestic partnership benefits, the Federal Government needs to update 
its employment policies to catch up to the rest of the country.
    The next generation of Federal employees wants to work for an 
employer that offers domestic partnership benefits. They value an 
employer who treats all employees equally whether they will use the 
benefits or not. This is a concept that we can support.
    The Federal Government already must follow the merit system 
principles to create a work environment free from discrimination and 
cronyism. These principles require agencies to treat all employees 
equally and require that personnel decisions be made without 
discriminating based on age, sex, race, religion, ability, off-duty 
conduct, or marital status.
    However, on the issue of sexual orientation, the Federal Government 
fails. Despite the fact that Office of Personnel Management believes 
that sexual orientation is protected from discrimination under current 
law, Special Counsel Scott Bloch, the individual responsible for 
enforcing the merit system principles, has an alternative 
interpretation that denies employees the protection from discrimination 
for sexual orientation. Extending domestic partnership benefits and 
clarifying that all Federal employees are protected from discrimination 
because of their sexual orientation would ensure that the Federal 
Government is complying with the principles of equality and non-
discrimination.
    As a matter of implementation of domestic partnership benefits, I 
understand that OPM is concerned about the potential cost of 
administering such benefits. I would ask OPM the question: what is the 
cost to the Federal Government on lost talent?
    Through training, student loan repayment programs, relocation 
benefits, and professional development, Federal agencies invest in a 
lot of time and resources the in the current workforce. In turn, the 
dedicated men and women of the Federal workforce keep America running. 
If we do not continue to provide competitive benefits packages that 
reflect the needs of Federal employees and their families, we will lose 
out on our investment. Domestic partnership benefits would help to 
ensure that the Federal Government is an employer of choice and help 
recruit and retain current and future Federal employees.
    The dedicated men and women of the Federal workforce in domestic 
partnerships should no longer be asked to compromise their families for 
their service. As an employer, we should hold ourselves to a high 
standard of equality. Extending domestic partnership benefits to 
Federal employees brings us closer to that goal. I look forward to 
hearing from the witnesses. Thank you again, Mr. Chairman.

    Senator Akaka. I want to thank you for holding this very 
important hearing on domestic partnership benefits for Federal 
employees. This is a continuing process. The U.S. Government is 
the largest employer in America, and the Federal Government 
should be the leader, therefore, in providing benefits to its 
workforce.
    To date, eight of the Fortune 10 companies, over 50 percent 
of the Fortune 500 companies, hundreds of small businesses and 
nonprofit organizations, and more than 200 State and local 
governments, including the State of Hawaii and the city and 
county of Honolulu, provide domestic partnership benefits. This 
appears to be standard industry practice. Domestic partnership 
benefits would help to ensure that the Federal Government is an 
employer of choice and would help to recruit and retain current 
and future Federal employees.
    Moreover, as an employer, we should hold ourselves to a 
higher standard of equality. The dedicated men and women of the 
Federal workforce in domestic partnerships should not have to 
compromise their families for their service. Extending domestic 
partnership benefits to Federal employees brings us closer to 
that goal.
    If I can, Mr. Chairman, I will proceed to my questions.
    Chairman Lieberman. Please.
    Senator Akaka. In your testimony, Mr. Weizmann, you claim 
that the Federal Government offers a competitive benefits 
package. However, in December of last year, former Ambassador 
Michael Guest retired from a distinguished career of Federal 
service largely because of the lack of domestic partnership 
benefits. Here is a direct case of a talented employee retiring 
because the Federal Government does not offer domestic 
partnership benefits.
    In representing the agency responsible for addressing this 
personnel issue, do you want to comment on this?
    Mr. Weizmann. I think, quite frankly, it speaks for itself. 
It is an issue where someone has left Federal employment for 
what they perceived to be a personal situation. We do have 
married spouses that we deal with all the time, people who are 
Federal employees, who leave Federal employment for similar 
reasons, be they in a domestic relationship or just simply 
married.
    So it is very difficult to generalize from a specific case, 
even one where obviously this individual is very talented and 
we regret that person left, to say that, in fact, this is a 
very large retention issue. As I said, when we look at the 
take-up rates when the benefit is offered, it is very small. It 
is around one percent for those employers who do have it. So I 
am not sure how large a problem it is, and obviously that is a 
story that is regretful. But I am not sure it proves the more 
general conclusion.
    Senator Akaka. OPM interprets current law to protect a 
Federal employee from discrimination on the basis of sexual 
orientation. However, Special Counsel Scott Bloch has an 
alternative interpretation of current law and denies employees 
such protections. Should this bill be enacted, do you believe 
that additional protections are needed to ensure employees are 
free to apply for domestic partnership benefits? Ms. Kelley.
    Ms. Kelley. I believe if you have followed the actions of 
Scott Bloch over at the Office of Special Counsel, you will see 
the record is very clear that NTEU opposes his actions, the way 
he interprets things, the actions he has taken against 
employees who work there--or who previously worked there, since 
they no longer work there. And I think that the time is long 
overdue for it to be made clear to him what the laws are, and 
what the rules are, and what the obligation of the Federal 
Government is.
    I would hate to think that legislation has to be passed or 
a new law written to enforce what is already in place and what, 
for whatever reason, he is not being held accountable for.
    Senator Akaka. I think you recall that I introduced a bill, 
S. 1345, which would clarify that Federal employees are 
protected from discrimination.
    Ms. Kelley. And, Senator Akaka, of course, you know that 
NTEU supports that legislation. I just do find it very 
frustrating that we need to keep passing laws to enforce laws 
that are already on the books that those appointed to these 
kinds of positions fail to follow.
    Senator Akaka. Ms. Bracey.
    Ms. Bracey. Thank you. I would echo what Ms. Kelley stated, 
that AFGE believes that Scott Bloch's interpretation is wrong, 
and we do oppose what he has stated, and again echo that this 
bill is very important to make sure that we secure rights for 
all Federal employees and that everyone is treated equally and 
fairly.
    Senator Akaka. Mr. Hartigan, good to have you before the 
Committee. You mentioned a number of anecdotes that highlight 
lower morale for employees because domestic partnership 
benefits are not offered to cover their families. As a senior 
manager, how do you deal with these morale issues without the 
authority to offer such benefits to those employees?
    Mr. Hartigan. Senator, it becomes very difficult because 
you have people who come to the workplace that are not treated 
equally. And throughout my testimony, I talk of examples where 
people have actually had to pay substantial costs to close the 
gap when benefits are not provided. And it does not only impact 
the employee. It impacts the whole working group because when 
you have a disengaged employee, not only is he or she 
distracted, but they are not contributing to the group overall.
    So the impact is much greater than just one individual. It 
really impacts the working group in total. It is very hard to 
deal with that.
    Senator Akaka. Let me ask Dr. Burton, what were IBM's 
biggest concerns with implementing domestic partnership 
benefits? And how did you address them?
    Ms. Burton. Thank you, Senator. I was not around and part 
of the internal team that actually implemented the first 
programs over 12 years ago, but I know that the concerns were 
not too dissimilar from any new institution that is embarking 
on the journey to make the programs relevant, to understand the 
implications of cost, to get information out to the employees 
in a timely and responsible way, to keep their employees safe 
and be entrusted with confidential information. So the 
questions that are being raised today are not new. This is why 
the ability to leverage those best practices are so important. 
And I extend the offer to share that information with you from 
both the private and public sectors' path in that space. Thank 
you.
    Senator Akaka. Thank you.
    Will there be a second round, Mr. Chairman?
    Chairman Lieberman. Probably not, so go right ahead, 
Senator Akaka. I have just a few more questions, but please go 
ahead.
    Senator Akaka. Thank you, Mr. Chairman.
    Mr. Weizmann, as a matter of recruitment, I have heard that 
college students at career fairs often raise the question of 
whether an employer offers domestic partnership benefits. It is 
not just gay and lesbian students raising this question, but 
students who value equality in the workplace.
    Have you conducted any surveys to assess how important 
equality in benefits coverage is to recruits?
    Mr. Weizmann. Excuse me, Senator. When you say equality in 
benefit coverage, are you referring specifically to same-sex 
domestic partner relationships or are you talking about 
equality in benefits across the board for anybody coming to the 
Federal Government?
    Senator Akaka. Well, let us say across the board.
    Mr. Weizmann. OK. No. We do have surveys that we do 
continuously with regard to employee surveys that show that the 
Federal benefits compare quite favorably to the private sector. 
So there seems to be a general satisfaction among Federal 
employees with the level of benefits. But it does not deal 
directly with the notion that you are suggesting in terms of 
whether equity was an issue at the point of hiring.
    Senator Akaka. Now, what about in the cases of gay and 
lesbian recruits?
    Mr. Weizmann. I am unaware of any surveys that we have 
done.
    Senator Akaka. Dr. Burton, have you been able to measure 
the impact of adding such benefits? And if so, what have been 
your findings?
    Ms. Burton. Yes, thank you. As you can imagine, IBM has an 
affinity for data, and so whether it be in our recruitment 
efforts where we are interviewing potential candidates, 
supporting our clients in their HR strategies and turning that 
anecdotal data into qualitative insights, or whether it be our 
exit interviews or the assessment of our leaders in really 
getting a hand on what to support in the climate that we are 
trying to create, what are those specific attitudes and 
behaviors that drive teaming behaviors? Again and again, it 
comes down to not only understanding how the GLBT employee 
experiences the workplace, but in a field like technology, 
where innovation, creativity, openness, and the ability to 
integrate diverse perspectives is at a premium, we must focus 
on understanding the relationship between domestic partnership 
benefits, having a culture where offering--and, again, it is 
not the monetary cost of how many folks sign up. And I think 
there is a risk in looking at how many folks sign up because 
there are other variables like the heavy tax burden that 
exists, so it may be cheaper for my partner to be covered on 
her own, or the social cost of me coming out to sign up and 
what it will mean in my colleagues' eyes to know, or the lack 
of infrastructure for my company to communicate the existence 
of benefits.
    So you cannot really just look in isolation at a statistics 
of how many folks sign up. There are other variables that 
provide a great deal of insight into how these all work 
together. But at the end of the day, when you look at the large 
studies that look at risk since 1982 that span private and 
public sectors, the benefits severely outweigh the costs. And 
we would be happy to share that with you, if helpful.
    Senator Akaka. Mr. Chairman, I have just two questions.
    Chairman Lieberman. Yes, go right ahead.
    Senator Akaka. Ms. Kelley and Ms. Bracey, Mr. Weizmann 
mentioned OPM's concerns about how filing an affidavit to 
verify the status of the domestic partnership could lead to 
fraud because, to some degree, spousal benefits are based on 
State-sanctioned marriage. Have you had a chance to review this 
issue? And if so, what are your thoughts about that?
    Ms. Kelley. Well, NTEU has some concerns about the whole 
affidavit process. I realize there needs to be something in 
place, but as far as I know, married employees are not required 
to submit a marriage certificate. It is requested or needs to 
be made available as Ms. Burton described when benefits are 
being claimed, perhaps. So, we are more than willing to work 
with the Committee and with OPM on what would be appropriate 
affidavit procedures.
    And I think it is really unfair of OPM to suggest that 
there is some kind of an increased fraud risk element by adding 
this benefit. I do not see how there would be any more of a 
chance of fraud in this benefit than there is in the FEHB 
program that exists today for married couples and married 
couples with children. I am totally missing why that even would 
be thought of, much less stated as a risk.
    Now, if there is a real risk, of course, every one of us 
here would be willing to work to ensure that the risk is 
eliminated in the current population of those benefiting or 
covered under Federal benefits, as well as any new populations. 
But I see nothing that would increase the risk and think that 
it is pretty unfair to even imply that.
    Senator Akaka. Thank you. Ms. Bracey.
    Ms. Bracey. Thank you. I believe affidavits have to be 
filed for FMLA, and I am not sure if OPM has expressed an issue 
with those being filed. And, again, we are not asking people to 
give up a marriage license and things like that in the same 
situation.
    I do think it is unfair--I know that regulations have to be 
set, but I think that it is unfair to put that on the backs of 
Federal workers. This is a bill that is necessary. It is 
necessary for them, for people who do the same amount of work 
to receive the same benefits and equal pay and benefits. And I 
think that the burden of regulations should not be on the backs 
of Federal Government workers. I believe that we can work 
together and come up with regulations that are fair and 
beneficial for everyone.
    Senator Akaka. Thank you. Mr. Weizmann.
    Mr. Weizmann. May I add to that? First of all, to suggest 
that we are being farfetched in the sense that these benefits 
are open to fraud and abuse, I would just simply--it is not an 
unrealistic concern. I would suggest even Hollywood has 
discussed this in a movie with Adam Sandler, which I think is 
``I Now Pronounce You Chuck and Larry,'' which the subject of 
the movie, quite frankly, was insurance fraud along the lines 
of what we are discussing. This is not farfetched and it is not 
disingenuous to suggest such.
    The second thing is, again, it comes back to the issue not 
only of granting those benefits, but also what happens after 
those benefits are granted and the dissolution of those 
benefits and how is that monitored. And for us, that is a very 
difficult problem. It is one thing to talk about the problem 
you are trying to address, but it is another thing to confuse 
that with the solution. And I think in this instance, we may be 
doing that.
    Senator Akaka. Thank you.
    Finally, Dr. Burton, how has IBM dealt with the issue of 
preventing fraud and abuse in implementing domestic partnership 
benefits?
    Ms. Burton. Thank you, Senator. As I shared in my opening 
comments, out of about 365,000 employees and in the 74 
countries in which we are supporting domestic partnership 
benefits, we do not have a high incidence of fraud. And in the 
experience of supporting our clients who are also implementing 
domestic partner benefits, there is a similar level of not 
experiencing fraud. And so the risk studies since 1982 suggest 
that there is not fraud. There is greater fraud in marriage 
licenses being produced that are not valid than there are in 
affidavits.
    So, again, internally--and it has been validated as recent 
as yesterday--that is not an issue for us, and we would be very 
happy to help facilitate any information that supports your 
decision-making.
    Senator Akaka. Thank you very much, and I thank you very 
much, Mr. Chairman, for your leadership.
    Chairman Lieberman. Thanks, Senator Akaka, for that 
excellent line of questions. I have two brief questions for Ms. 
Bracey and Mr. Hartigan, which get to this same point, which is 
the impact of the absence of same-sex benefits for Federal 
employees in a competitive environment.
    I was interested, Ms. Bracey, that you made the point that 
private contractors who are competing for work now done by 
Federal employees, particularly as we think forward with the 
large number of retirements we expect, have an advantage here, 
because I gather from what you have said that many of the 
private contractors competing for this work do offer same-sex 
partnership benefits. Why don't you talk about that a little 
bit more?
    Ms. Bracey. Thank you. Yes, there is definitely fierce 
competition out there, and the Federal Government wants to 
attract the brightest and best employees that the United States 
has to offer. We want to be just as competitive as everyone 
else is, and because of the lack of domestic partnership 
benefits, we are not attracting everyone that would be 
interested in working for the Federal Government, especially in 
instances where we are trying to attract for specific positions 
where there are not as many people to fill those positions. We 
need to make sure that we are offering the best packages, the 
best benefits, to make sure that we are recruiting those 
employees.
    We are going to have a huge retirement bloc that is going 
to be retiring in the near future, and we need to make sure 
that we are filling those positions with the most highly 
qualified people and that we are not losing them to Fortune 500 
companies. The Federal Government is a model employer, and we 
should act as so. We should make sure that we are leading in 
offering the benefits, not lagging behind, basically.
    Chairman Lieberman. Right. Thanks.
    Mr. Hartigan, similarly you testified that the FDIC is 
considering offering some form of domestic partner benefit but 
that, in fact, Federal Reserve banks and the Department of 
Treasury's Office of the Comptroller of the Currency have 
already implemented limited forms of domestic partner benefits. 
And I think you referenced--but I want to ask you to speak to 
this--whether part of what is going on in that interesting 
movement within the overall Federal Government human capital 
management system is that those Federal financial regulators 
are essentially competing for some of the same people with the 
private financial services sector, which to a great degree does 
already offer same-sex partnership benefits.
    Mr. Hartigan. Yes, that is correct, Senator. Our people are 
highly trained, and typically for a bank examiner, it takes 
sometimes up to 3 years to get them fully up to speed. Once 
they have the expertise, they are highly sought after by the 
commercial banks that we regulate. So we are competing directly 
against them. We are not only seeing the top organizations 
offer domestic partner benefits, we are seeing community banks 
offer domestic partner benefits. So it is definitely an issue.
    When you want to be recognized as an employer of choice or 
a great place to work, fairness is an issue. And it is 
important to attract the best people being recognized as the 
best employer. It definitely impacts our mission.
    One other thing I was just going to say is on the 
relocation issue it is a major issue if we cannot get people to 
move around the country where we need them. It is a 
disincentive to them. It also can affect the mission of the 
agency.
    Chairman Lieberman. Yes, that was very interesting to me 
because I think it is a benefit that would not first come to 
the mind of most people thinking about this issue. We think 
naturally about health benefits or retirement benefits. But I 
can certainly see from both the point of view of the employee, 
but then longer term the point of view of the Federal 
Government as the employer, that you could either lose some 
employees or find them resistant to being moved to where you 
would like to move them because of the absence of full 
relocation benefits. I thought that was an excellent point.
    Let me ask, without objection, that several documents be 
included in the record of the hearing, which I think are quite 
impressive. First, there are five statements and letters in 
support of this legislation from groups that are not testifying 
directly before us: The American Postal Workers Union, the 
American Federation of State, County, and Municipal Employees, 
the Human Rights Campaign, Federal GLOBE, and a coalition of 15 
organizations that support S. 2521, including a couple that are 
before us this morning.
    Also, we have four letters and statements at some length 
from companies describing their favorable experience with 
programs to provide domestic partnership benefits to their 
employees, and that is from General Electric (I say as a matter 
of record, headquartered in Fairfield, Connecticut), the Chubb 
Corporation, TIAA-CREF, and Nike, Inc. Those are quite 
substantial corporations.\1\
---------------------------------------------------------------------------
    \1\ The letters and prepared statements appear in the Appendix on 
pages 75-156.
---------------------------------------------------------------------------
    And, finally, we are grateful to have received two reports 
just released yesterday, I hope and believe coincident with 
this hearing. One is a very thoughtful and thorough assessment 
of the fiscal impact of S. 2521 prepared by the Williams 
Institute, a research institute at the University of 
California, Los Angeles, School of Law, which I really would 
recommend to both those who support and those who oppose the 
legislation as it is now, or even those who seem to be neutral, 
at least in testimony, because it is a good piece of work that 
I think advances the discussion.\2\
---------------------------------------------------------------------------
    \2\ The report from the Williams Institute appears in the Appendix 
on page 157.
---------------------------------------------------------------------------
    And, finally, a report summarizing the experience of States 
that provide benefits to their employees' same-sex domestic 
partners prepared by the Center for American Progress.\1\
---------------------------------------------------------------------------
    \1\ The report from the Center for American Progress appears in the 
Appendix on page 173.
---------------------------------------------------------------------------
    I thank the witnesses. I thank my colleagues who have been 
here. I think this has been a very thoughtful discussion of 
what I take--and I know Senator Akaka, as a cosponsor, does--to 
be an important proposal, both in terms of equity, but in terms 
also of the capacity of the Federal Government to attract the 
best employees and retain them to carry out the important 
missions that we have.
    I can tell you that Senator Smith and I, and I am sure 
Senator Akaka and others who have cosponsored this legislation, 
intend to introduce it again in the next session of Congress 
and hope to advance both the discussion and hopefully the 
passage of this legislation.
    I will say for the record that the record will remain open 
for 15 days should any of the witnesses want to supplement 
their testimony, or some members of the Committee who could not 
be here today may submit questions for the record for you, 
which we ask you to answer in a timely fashion.
    With that, I thank everyone who was here and officially 
declare the hearing to be adjourned.
    [Whereupon, at 11:46 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 45581.001

[GRAPHIC] [TIFF OMITTED] 45581.002

[GRAPHIC] [TIFF OMITTED] 45581.003

[GRAPHIC] [TIFF OMITTED] 45581.004

[GRAPHIC] [TIFF OMITTED] 45581.005

[GRAPHIC] [TIFF OMITTED] 45581.006

[GRAPHIC] [TIFF OMITTED] 45581.007

[GRAPHIC] [TIFF OMITTED] 45581.008

[GRAPHIC] [TIFF OMITTED] 45581.009

[GRAPHIC] [TIFF OMITTED] 45581.010

[GRAPHIC] [TIFF OMITTED] 45581.012

[GRAPHIC] [TIFF OMITTED] 45581.013

[GRAPHIC] [TIFF OMITTED] 45581.014

[GRAPHIC] [TIFF OMITTED] 45581.015

[GRAPHIC] [TIFF OMITTED] 45581.016

[GRAPHIC] [TIFF OMITTED] 45581.017

[GRAPHIC] [TIFF OMITTED] 45581.018

[GRAPHIC] [TIFF OMITTED] 45581.019

[GRAPHIC] [TIFF OMITTED] 45581.020

[GRAPHIC] [TIFF OMITTED] 45581.021

[GRAPHIC] [TIFF OMITTED] 45581.022

[GRAPHIC] [TIFF OMITTED] 45581.023

[GRAPHIC] [TIFF OMITTED] 45581.024

[GRAPHIC] [TIFF OMITTED] 45581.025

[GRAPHIC] [TIFF OMITTED] 45581.026

[GRAPHIC] [TIFF OMITTED] 45581.027

[GRAPHIC] [TIFF OMITTED] 45581.028

[GRAPHIC] [TIFF OMITTED] 45581.029

[GRAPHIC] [TIFF OMITTED] 45581.030

[GRAPHIC] [TIFF OMITTED] 45581.031

[GRAPHIC] [TIFF OMITTED] 45581.032

[GRAPHIC] [TIFF OMITTED] 45581.033

[GRAPHIC] [TIFF OMITTED] 45581.034

[GRAPHIC] [TIFF OMITTED] 45581.035

[GRAPHIC] [TIFF OMITTED] 45581.036

[GRAPHIC] [TIFF OMITTED] 45581.037

[GRAPHIC] [TIFF OMITTED] 45581.038

[GRAPHIC] [TIFF OMITTED] 45581.039

[GRAPHIC] [TIFF OMITTED] 45581.040

[GRAPHIC] [TIFF OMITTED] 45581.041

[GRAPHIC] [TIFF OMITTED] 45581.042

[GRAPHIC] [TIFF OMITTED] 45581.043

[GRAPHIC] [TIFF OMITTED] 45581.044

[GRAPHIC] [TIFF OMITTED] 45581.045

[GRAPHIC] [TIFF OMITTED] 45581.046

[GRAPHIC] [TIFF OMITTED] 45581.047

[GRAPHIC] [TIFF OMITTED] 45581.048

[GRAPHIC] [TIFF OMITTED] 45581.049

[GRAPHIC] [TIFF OMITTED] 45581.050

[GRAPHIC] [TIFF OMITTED] 45581.051

[GRAPHIC] [TIFF OMITTED] 45581.052

[GRAPHIC] [TIFF OMITTED] 45581.055

[GRAPHIC] [TIFF OMITTED] 45581.056

[GRAPHIC] [TIFF OMITTED] 45581.057

[GRAPHIC] [TIFF OMITTED] 45581.058

[GRAPHIC] [TIFF OMITTED] 45581.059

[GRAPHIC] [TIFF OMITTED] 45581.060

[GRAPHIC] [TIFF OMITTED] 45581.061

[GRAPHIC] [TIFF OMITTED] 45581.062

[GRAPHIC] [TIFF OMITTED] 45581.063

[GRAPHIC] [TIFF OMITTED] 45581.064

[GRAPHIC] [TIFF OMITTED] 45581.065

[GRAPHIC] [TIFF OMITTED] 45581.066

[GRAPHIC] [TIFF OMITTED] 45581.067

[GRAPHIC] [TIFF OMITTED] 45581.068

[GRAPHIC] [TIFF OMITTED] 45581.069

[GRAPHIC] [TIFF OMITTED] 45581.070

[GRAPHIC] [TIFF OMITTED] 45581.071

[GRAPHIC] [TIFF OMITTED] 45581.072

[GRAPHIC] [TIFF OMITTED] 45581.073

[GRAPHIC] [TIFF OMITTED] 45581.074

[GRAPHIC] [TIFF OMITTED] 45581.075

[GRAPHIC] [TIFF OMITTED] 45581.076

[GRAPHIC] [TIFF OMITTED] 45581.077

[GRAPHIC] [TIFF OMITTED] 45581.078

[GRAPHIC] [TIFF OMITTED] 45581.079

[GRAPHIC] [TIFF OMITTED] 45581.080

[GRAPHIC] [TIFF OMITTED] 45581.081

[GRAPHIC] [TIFF OMITTED] 45581.082

[GRAPHIC] [TIFF OMITTED] 45581.083

[GRAPHIC] [TIFF OMITTED] 45581.084

[GRAPHIC] [TIFF OMITTED] 45581.085

[GRAPHIC] [TIFF OMITTED] 45581.086

[GRAPHIC] [TIFF OMITTED] 45581.087

[GRAPHIC] [TIFF OMITTED] 45581.088

[GRAPHIC] [TIFF OMITTED] 45581.089

[GRAPHIC] [TIFF OMITTED] 45581.090

[GRAPHIC] [TIFF OMITTED] 45581.091

[GRAPHIC] [TIFF OMITTED] 45581.092

[GRAPHIC] [TIFF OMITTED] 45581.093

[GRAPHIC] [TIFF OMITTED] 45581.094

[GRAPHIC] [TIFF OMITTED] 45581.095

[GRAPHIC] [TIFF OMITTED] 45581.096

[GRAPHIC] [TIFF OMITTED] 45581.097

[GRAPHIC] [TIFF OMITTED] 45581.098

[GRAPHIC] [TIFF OMITTED] 45581.099

[GRAPHIC] [TIFF OMITTED] 45581.100

[GRAPHIC] [TIFF OMITTED] 45581.101

[GRAPHIC] [TIFF OMITTED] 45581.102

[GRAPHIC] [TIFF OMITTED] 45581.103

[GRAPHIC] [TIFF OMITTED] 45581.104

[GRAPHIC] [TIFF OMITTED] 45581.105

[GRAPHIC] [TIFF OMITTED] 45581.106

[GRAPHIC] [TIFF OMITTED] 45581.107

[GRAPHIC] [TIFF OMITTED] 45581.108

[GRAPHIC] [TIFF OMITTED] 45581.109

[GRAPHIC] [TIFF OMITTED] 45581.110

[GRAPHIC] [TIFF OMITTED] 45581.111

[GRAPHIC] [TIFF OMITTED] 45581.112

[GRAPHIC] [TIFF OMITTED] 45581.113

[GRAPHIC] [TIFF OMITTED] 45581.114

[GRAPHIC] [TIFF OMITTED] 45581.115

[GRAPHIC] [TIFF OMITTED] 45581.116

[GRAPHIC] [TIFF OMITTED] 45581.117

[GRAPHIC] [TIFF OMITTED] 45581.118

[GRAPHIC] [TIFF OMITTED] 45581.119

[GRAPHIC] [TIFF OMITTED] 45581.120

[GRAPHIC] [TIFF OMITTED] 45581.121

[GRAPHIC] [TIFF OMITTED] 45581.122

[GRAPHIC] [TIFF OMITTED] 45581.123

[GRAPHIC] [TIFF OMITTED] 45581.124

[GRAPHIC] [TIFF OMITTED] 45581.125

[GRAPHIC] [TIFF OMITTED] 45581.126

[GRAPHIC] [TIFF OMITTED] 45581.127

[GRAPHIC] [TIFF OMITTED] 45581.128

[GRAPHIC] [TIFF OMITTED] 45581.129

[GRAPHIC] [TIFF OMITTED] 45581.130

[GRAPHIC] [TIFF OMITTED] 45581.131

[GRAPHIC] [TIFF OMITTED] 45581.132

[GRAPHIC] [TIFF OMITTED] 45581.133

[GRAPHIC] [TIFF OMITTED] 45581.134

[GRAPHIC] [TIFF OMITTED] 45581.135

[GRAPHIC] [TIFF OMITTED] 45581.136

[GRAPHIC] [TIFF OMITTED] 45581.137

[GRAPHIC] [TIFF OMITTED] 45581.138

[GRAPHIC] [TIFF OMITTED] 45581.139

[GRAPHIC] [TIFF OMITTED] 45581.140

[GRAPHIC] [TIFF OMITTED] 45581.141

[GRAPHIC] [TIFF OMITTED] 45581.142

[GRAPHIC] [TIFF OMITTED] 45581.143

[GRAPHIC] [TIFF OMITTED] 45581.144

[GRAPHIC] [TIFF OMITTED] 45581.145

[GRAPHIC] [TIFF OMITTED] 45581.146

[GRAPHIC] [TIFF OMITTED] 45581.147

[GRAPHIC] [TIFF OMITTED] 45581.148

[GRAPHIC] [TIFF OMITTED] 45581.149

[GRAPHIC] [TIFF OMITTED] 45581.150

[GRAPHIC] [TIFF OMITTED] 45581.151

[GRAPHIC] [TIFF OMITTED] 45581.152

[GRAPHIC] [TIFF OMITTED] 45581.153

[GRAPHIC] [TIFF OMITTED] 45581.154

[GRAPHIC] [TIFF OMITTED] 45581.155

[GRAPHIC] [TIFF OMITTED] 45581.156

[GRAPHIC] [TIFF OMITTED] 45581.157

[GRAPHIC] [TIFF OMITTED] 45581.158

[GRAPHIC] [TIFF OMITTED] 45581.159

[GRAPHIC] [TIFF OMITTED] 45581.160

[GRAPHIC] [TIFF OMITTED] 45581.161

[GRAPHIC] [TIFF OMITTED] 45581.162

[GRAPHIC] [TIFF OMITTED] 45581.163

[GRAPHIC] [TIFF OMITTED] 45581.164

[GRAPHIC] [TIFF OMITTED] 45581.165

[GRAPHIC] [TIFF OMITTED] 45581.166

[GRAPHIC] [TIFF OMITTED] 45581.167

[GRAPHIC] [TIFF OMITTED] 45581.168

[GRAPHIC] [TIFF OMITTED] 45581.169

[GRAPHIC] [TIFF OMITTED] 45581.170

[GRAPHIC] [TIFF OMITTED] 45581.171

[GRAPHIC] [TIFF OMITTED] 45581.172

[GRAPHIC] [TIFF OMITTED] 45581.173

[GRAPHIC] [TIFF OMITTED] 45581.174

[GRAPHIC] [TIFF OMITTED] 45581.175

[GRAPHIC] [TIFF OMITTED] 45581.176

[GRAPHIC] [TIFF OMITTED] 45581.177

[GRAPHIC] [TIFF OMITTED] 45581.178

[GRAPHIC] [TIFF OMITTED] 45581.179

[GRAPHIC] [TIFF OMITTED] 45581.180

[GRAPHIC] [TIFF OMITTED] 45581.181

[GRAPHIC] [TIFF OMITTED] 45581.182

[GRAPHIC] [TIFF OMITTED] 45581.183

[GRAPHIC] [TIFF OMITTED] 45581.184

[GRAPHIC] [TIFF OMITTED] 45581.185

[GRAPHIC] [TIFF OMITTED] 45581.186

[GRAPHIC] [TIFF OMITTED] 45581.187

[GRAPHIC] [TIFF OMITTED] 45581.188

[GRAPHIC] [TIFF OMITTED] 45581.189

[GRAPHIC] [TIFF OMITTED] 45581.190

[GRAPHIC] [TIFF OMITTED] 45581.191

[GRAPHIC] [TIFF OMITTED] 45581.192

[GRAPHIC] [TIFF OMITTED] 45581.193

[GRAPHIC] [TIFF OMITTED] 45581.194

[GRAPHIC] [TIFF OMITTED] 45581.195

[GRAPHIC] [TIFF OMITTED] 45581.196

[GRAPHIC] [TIFF OMITTED] 45581.197

[GRAPHIC] [TIFF OMITTED] 45581.198

[GRAPHIC] [TIFF OMITTED] 45581.199

[GRAPHIC] [TIFF OMITTED] 45581.200

[GRAPHIC] [TIFF OMITTED] 45581.201

[GRAPHIC] [TIFF OMITTED] 45581.202

                                 <all>

</pre></body></html>
